<html>
<title> - EXTREME WEATHER IN ALASKA: STATE AND FEDERAL RESPONSE TO IMMINENT DISASTERS IN THE ARCTIC</title>
<body><pre>[Senate Hearing 113-542]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 113-542
 
                           EXTREME WEATHER IN ALASKA:
                    STATE AND FEDERAL RESPONSE TO IMMINENT 
                            DISASTERS IN THE ARCTIC

=======================================================================

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON EMERGENCY
 MANAGEMENT, INTERGOVERNMENTAL RELATIONS, AND THE DISTRICT OF COLUMBIA

                                 OF THE

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                   FIELD HEARING IN ANCHORAGE, ALASKA

                               __________

                           SEPTEMBER 13, 2013

                               __________

                   Available via http://www.fdsys.gov

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs
                        
                        
                        
  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
  
  
  
                     U.S. GOVERNMENT PUBLISHING OFFICE
85-508 PDF                WASHINGTON : 2015                     
                       
                        
_______________________________________________________________________________________                        
  For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5037203f103325232438353c207e333f3d7e">[email&#160;protected]</a>  
                     
                        
                        
                        
                        
                        
                        

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                  THOMAS R. CARPER, Delaware Chairman
CARL LEVIN, Michigan                 TOM COBURN, Oklahoma
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          RON JOHNSON, Wisconsin
CLAIRE McCASKILL, Missouri           ROB PORTMAN, Ohio
JON TESTER, Montana                  RAND PAUL, Kentucky
MARK BEGICH, Alaska                  MICHAEL B. ENZI, Wyoming
TAMMY BALDWIN, Wisconsin             KELLY AYOTTE, New Hampshire
HEIDI HEITKAMP, North Dakota

                   Richard J. Kessler, Staff Director
               Keith B. Ashdown, Minority Staff Director
                     Trina D. Shiffman, Chief Clerk
                    Laura W. Kilbride, Hearing Clerk


SUBCOMMITTEE ON EMERGENCY MANAGEMENT, INTERGOVERNMENTAL RELATIONS, AND 
                        THE DISTRICT OF COLUMBIA

                      MARK BEGICH, Alaska Chairman
CARL LEVIN, Michigan                 RAND PAUL, Kentucky
MARK L. PRYOR, Arkansas              JOHN MCCAIN, Arizona
MARY L. LANDRIEU, Louisiana          ROB PORTMAN, Ohio
JON TESTER, Montana                  MICHAEL B. ENZI, Wyoming
HEIDI HEITKAMP, North Dakota
                     Pat McQuillan, Staff Director
                Brandon Booker, Minority Staff Director
                       Kelsey Stroud, Chief Clerk
                            C O N T E N T S

                                 ------                                
Opening statement:
                                                                   Page
    Senator Begich...............................................     1

                               WITNESSES
                       Friday, September 13, 2013

Vivian Korthuis, Project Development Director, Association of 
  Village Council Presidents.....................................     4
Thomas Ravens, Professor, Department of Civil Engineering, 
  University of Alaska, Anchorage................................     5
Melanie Bahnke, President of Kawerak, Inc........................     7
David Miller, Associate Administrator, Federal Insurance and 
  Mitigation Administration......................................    18
Kenneth Murphy, Regional Administrator, FEMA Region X............    20
Colonel Christopher D. Lestochi, District Commander Alaska 
  District, Pacific Ocean Division, Department of the Army, U.S. 
  Army Corps of Engineers........................................    21
John W. Madden, Director, Alaska Division of Homeland Security 
  and Emergency Management.......................................    23

                     Alphabetical List of Witnesses

Bahnke, Melanie:
    Testimony....................................................     7
    Prepared statement...........................................    46
Korthuis, Vivian:
    Testimony....................................................     4
    Prepared statement...........................................    35
Lestochi, Col. Christopher D.:
    Testimony....................................................    21
    Prepared statement...........................................    60
Madden, John W.:
    Testimony....................................................    23
    Prepared statement...........................................    65
Miller, David:
    Testimony....................................................    18
    Prepared statement...........................................    50
Murphy, Ken:
    Testimony....................................................    20
    Prepared statement...........................................    50
Ravens, Thomas:
    Testimony....................................................     5
    Prepared statement...........................................    38

                                APPENDIX

Questions and responses for the Record from:
    Ms. Korthuis.................................................    71
    Mr. Ravens...................................................   109
    Ms. Bahnke...................................................   114
    Mr. Miller...................................................   115
    Mr. Murphy...................................................   119
    Mr. Lestochi.................................................   121

                    EXTREME WEATHER IN ALASKA: STATE



        AND FEDERAL RESPONSE TO IMMINENT DISASTERS IN THE ARCTIC

                              ----------                              


                           SEPTEMBER 13, 2013

                               U.S. Senate,        
              Subcommittee on Emergency Management,        
                         Intergovernmental Relations,      
                          and the District of Columbia,    
                    of the Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Subcommittee on Emergency Management, Intergovernmental 
Relations, and the District of Columbia of the U.S. Senate 
Committee on Homeland Security and Governmental Affairs met, 
pursuant to notice, at 2 p.m., in Anchorage, Alaska, Hon. Mark 
Begich presiding.

              OPENING STATEMENT OF SENATOR BEGICH

    Chairman Begich. Thank you, for those that have rearranged 
your schedules. I was just joking that we can fly to the moon, 
put things on Mars. We can go to the bottom of the ocean. We 
can drill 5,000 feet under the ocean floor, but when it rains 
in Washington, you can not get a plane off the ground. It is 
the most amazing thing. So thank you for being patient while I 
traveled here today and again, good afternoon, thank you and 
welcome.
    This is the Subcommittee on Emergency Management, 
Intergovernmental Relations, and the District of Columbia. As I 
said, many of you have traveled a great distance to be here 
today, so thanks for being here and welcome to Anchorage. I 
apologize again for the hectic schedule. As you know, the 
weather made a big difference.
    We appreciate your flexibility and willingness and we thank 
Nana Regional Corporation for allowing us to use this great 
room here. We appreciate them allowing and changing the 
schedule a little bit.
    Today, at this Subcommittee's first field hearing, we will 
examine the impacts of extreme weather on Alaska Native 
villages and long-term strategies for mitigating risk 
associated with the changing climate. Alaska's unique position 
as an Arctic State presents both advantages and challenges, as 
we work to support and preserve our State's economy, social and 
cultural structure.
    One of the most immediate challenges is how we are adapting 
to the evolving threats of extreme weather. Alaska's remote 
location and unique vulnerabilities put our State on the front 
lines to expose gaps and highlight the need for flexibility is 
disaster related policies across the Federal Government.
    There are many things you can learn from Alaska's 
experience and we have an opportunity to lead the way in 
reducing risk and supporting sustainable communities. 
Tornadoes, hurricanes, earthquakes, and I have to say for a 
second, the DC staff, I know experienced an earthquake, I think 
it was yesterday. So they got a good feel. We like to welcome 
them when we are doing emergency preparedness, let's just have 
an earthquake to start it off.
    They occur with little warning and happen quickly, but 
erosion and flooding and sea level rise are long-term events 
that can have far reaching effects without meeting the 
threshold of a disaster as defined by the Stafford Act. I like 
to call these prolonged disasters.
    Coastal or river erosion may not be enough to qualify a 
community for Federal disaster declaration, but extreme weather 
can often make these issues worse, leaving communities at 
higher risk. Over the years, Congress and other members of the 
Federal Government have examined the threats of erosion and 
flooding to Alaska Native villages. In 2004, the Army Corps of 
Engineers was directed by Congress to conduct an Alaska erosion 
baseline study released in 2009.
    In addition, the Corps was provided with the authority to 
carry out, at full Federal expense, structural and 
nonstructural projects for storm damage prevention and 
reduction of coastal erosion and ice and glacial damage in 
Alaska, including relocation of affected communities and 
construction of replacement facilities.
    While authority was provided for this action, sufficient 
funds have not been appropriated. The Energy and Water 
Appropriation Act of 2005 contained Section 117, which provided 
direct assistance for coastal erosion in nine Alaska villages 
and by all accounts was quite successful.
    However, this authority was replaced in March 2009, against 
my objections. Earlier this year, the Senate Committee of 
Appropriation, of which I am a member of, passed an energy and 
water appropriation bill for the fiscal year (FY) 2014, that 
supported language which provides 30 million dollars in a 
larger shore protection funding category that could go to 
Alaska projects.
    While we still have to pass the appropriation bill in the 
Senate and then reconcile it with the House version before 
final passage, I am committed to seeing this language survive 
and look forward to working with the Corps to assure the 
funding remains available for the critical projects throughout 
the State.
    The Corps's 2009 assessment identified 26 immediately 
threatened villages, some of which are represented here today 
on our second panel of witnesses, actually first panel. 
Unfortunately, the list of 26 has grown over the years and 
shows no sign of getting smaller.
    More immediately threatened villages have been identified 
by various agencies and organizations and the list of 
critically vulnerable villages has grown to 31. According to 
the Government Accountability Office (GAO), at least 12 of the 
31 immediately threatened villages have decided to relocate in 
part or entirely, or to at least begin to explore relocation 
options.
    The villages at greatest risk would have to move on a 
tighter timeframe since they continue to suffer flooding and 
erosion and have limited evacuation options should their 
situation worsen. Other at-risk villages that are considering 
relocation have the option of gradually migrating to a safer 
location over time.
    The seemingly ad hoc approach to community relocation does 
little to make strides toward a risk reduction strategy. At the 
request of Congress, the GAO has published research into Alaska 
Native villages threatened by erosion and flooding.
    In 2009, the GAO, released a report on Alaska Native 
villages, limited progress has been made on relocating villages 
threatened by flooding and erosion. The report ended with 
recommendations that have yet to be acted on and could provide 
a road map for future committee action.
    I look forward to working in my capacity as Chair of the 
Subcommittee to ensure the GAO continues to focus on Alaska's 
issues and updates their recommendations to reflect the State's 
most current needs. Alaska's an indiscernible State with a 
common goal promoting thriving communities in the face of 
increasingly uncertain and extreme weather.
    We live in a State that challenges to confront the 
realities of a changing climate sooner than any other State, 
but what we learn here in Alaska must not be confined within 
our borders. We have a responsibility to help make the Federal 
policy as flexible as possible, so the Nation can adapt to new 
climate realities. Without a plan to incorporate evolving 
threats and hazards into community planning, critical 
infrastructure will remain incapable of surviving the long-term 
effects of climate change.
    Until we have a comprehensive picture of the risk our 
citizens are facing, we will continue to struggle to lessen our 
risk in support economically, culturally and socially viable 
communities here in Alaska and around the country. This is not 
just an Alaskan priority. It is a priority for the Nation and I 
look forward to hearing the testimony today as we continue this 
discussion.
    This meeting is called to order and let me just say that we 
have done a couple of things here, and I appreciate the staff 
putting this together. Usually, you see committee hearings that 
the four witnesses are there and they are facing this way and 
everyone sees their backs.
    The last two we have done, we do them this way, because as 
we talk about these issues, we want them to feel as comfortable 
as possible, they are not just talking to me. So we appreciate 
the folks that are here. I know we are trying to tie someone in 
by phone, is that true? Are they connected?
    Unidentified Speaker. Yes.
    Chairman Begich. OK, let me introduce the first panel. 
Again, we thank everyone for being here. We thank you for 
adjusting your schedule. First, I will introduce all three and 
then I will ask them to each start with their testimony. The 
first one is Vivian Korthuis, right?
    Ms. Korthuis. Korthuis.
    Chairman Begich. Korthuis, and currently serves as Project 
Development Director for the Association of Village Council 
Presidents (AVCP). Vivian is originally from Emmonak on the 
Lower Yukon River and you are here probably for Myron, I bet. 
Thank you very much, Vivian.
    Thomas Ravens is a professor at the University of Alaska, 
Anchorage. Dr. Ravens' research is focused on two principal 
areas. Coastal processes and renewable energy includes field, 
laboratory and modeling work. Thank you for being here.
    Online, we have Melanie Bahnke--is currently the President 
Chief Executive Officer (CEO) of Kawerak, Incorporated, 
regional nonprofit tribal consortium in the Bering Strait 
Region of Alaska where there are 20 federally recognized 
Tribes. Do you all want to do them in this order--do we want 
to--OK.
    Let me start with Vivian and then I will go to Thomas and 
then Melanie, I will have you on last and hopefully, you can 
hear us OK here. Vivian, thank you very much again for being 
here.
    Ms. Korthuis. Is this on?
    Chairman Begich. It is on.
    Ms. Korthuis. Great, thank you.
    Chairman Begich. If it is red, it is on.

TESTIMONY OF VIVIAN KORTHUIS,\1\ PROJECT DEVELOPMENT DIRECTOR, 
   ASSOCIATION OF VILLAGE COUNCIL PRESIDENTS, BETHEL, ALASKA

    Ms. Korthuis. Good afternoon, Mr. Chairman and Committee 
Members. My name is Vivian Korthuis. I am the Project 
Development Director for the Association of Village Council 
Presidents in Bethel, Alaska. AVCP is the regional Native 
nonprofit corporation for 56 Tribes along the Yukon/Kuskokwim 
River and the Bering Sea Coast.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Korthuis appears in the Appendix 
on page 35.
---------------------------------------------------------------------------
    Thank you for inviting AVCP today to address you regarding 
the Tribal issues related to disasters in the Arctic. The 
Arctic is changing, which means our homeland is changing. The 
Elders in our region are observing these changes. Our 
communities are being directly impacted. We have seen floods, 
extreme weather, rivers and streams changing course, and lakes 
drying up on the YK Delta. The impact of these events have had 
on our villages includes changes to our traditional hunting and 
fishing and relocation of whole communities.
    Over time, we have established community response teams 
which have included health aides, city and Tribal police, 
school administrators, Tribal administrators and local 
community leaders, who have taken it upon themselves to plan 
and implement local disaster responses.
    Many of our villages do not have adequate infrastructure 
that is required to take care of people in crisis.
    We have seen this recently with the example of the flood in 
Crooked Creek. In this situation, we witnessed the resilience 
of our people and our communities. As a regional Native Tribal 
Consortium, we must address every disaster in our region with 
the resources that are available to us. We rely on the Tribal 
Administrator to take the lead in planning for and responding 
to community disasters which may occur at any time of the year.
    Overall, our region is truly not prepared for a large-scale 
weather or industrial disaster occurring either along the Yukon 
River, Kuskokwim River or Bering Sea coast. Our 56 Tribes and 
communities will take the lead in anything that occurs within 
the village, but our villages will need help.
    The help our villages need sometimes comes in many 
different ways, including planning, preparing for and 
responding to the mitigating, long-lasting environmental 
impacts from erosion, floods and extreme weather. The best way 
we know how to do this is at the community level. We know what 
works in our villages and how best to prepare for either an 
unexpected crisis or a planned relocation of a community.
    Our region must improve the capacity to be disaster 
resilient. We recommend that every community have an emergency 
plan. Some villages are not prepared and some villages are. The 
key players in the community involve the Tribal Police or 
Village Public Safety Officer, as well as the City Managers and 
Tribal Administrators. The health aides play a key role in the 
community. Funding must be available for all communities to 
have community plans.
    The region also needs a centralized response and recovery 
plan. AVCP has been working on this for the past several years. 
We propose to develop the Western Alaska Emergency Response 
Center, which will aid in the coordination of all emergency 
responses in our region, and then I am going to jump to the end 
and say that again, the best way we know how to deal with 
disasters in the Arctic, our homeland, is at the community 
level and we are requesting assistance from both the State and 
the Federal Government to be completely prepared and ready to 
respond to any disaster along the Yukon River, Kuskokwim River 
and the Bearing Sea coast. Thank you.
    Chairman Begich. Thank you very much and just again, for 
the record, all your written testimonies are included in the 
official record, too. So I thank you for jumping to the end 
there. Let me go to Thomas, go ahead and do your testimony.

 TESTIMONY OF THOMAS RAVENS,\1\ PROFESSOR, DEPARTMENT OF CIVIL 
          ENGINEERING, UNIVERSITY OF ALASKA ANCHORAGE

    Dr. Ravens. Thank you, Senator, and welcome to you and 
other distinguished guests. I am a professor of Civil 
Engineering at the University of Alaska, Anchorage. I have been 
here for 6 years. Prior to Alaska, I was a tenured professor at 
Texas A&M University and before that, I did my Ph.D. at MIT on 
the east coast.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Ravens appears in the Appendix on 
page 38.
---------------------------------------------------------------------------
    So I am telling you all that because--to show you that I 
understand coastal processes, both from the Lower 48 
perspective and from the Alaska perspective and things are 
really quite different up here is Alaska, especially the 
northern part of Alaska.
    In the Lower 48, the main cause of coastal change is 
mechanical processes. In Alaska, especially northern Alaska, 
thermal processes are very important. A good part of the 
coastline is permafrost and the thawing of that coastline 
allows the sediments to be readily transported away.
    So approaches that may have worked in the Lower 48, really 
need to be changed to be successful up here in Alaska and we 
have done some preliminary work along those lines, which has 
been successful, but now, what I really want to talk with you 
today about is storm surge modeling on the YK Delta, which is 
on the west coast of Alaska.
    Now, the YK Delta is home for 40,000 Alaskans, including 
many Native Alaskans. It is also the home of the wildlife, the 
Yukon Wildlife Refuge, which is a world-class center for 
nesting birds, but unfortunately, the Delta's very low 
elevation--only two meters above mean sea level and so it is 
very vulnerable to storm surges and that vulnerability will 
only increase, in fact drastically, with sea level rise.
    So the goal of some research I am reporting on now was to 
really quantify--well, how vulnerable is the YK Delta, in 
particular, its ecology, to sea level rise? We assumed a 40-
centimeter sea level rise and for this initial work, we are 
just projecting changes to vegetation due to that sea level 
rise.
    We identified 10 historic storms. We simulated the 
inundation due to those storms. We calculated an annual 
inundation index, which is a measure of the expected amount of 
inundation on the Delta during a given year and the output of 
that is some kind of plot, like a contour plot showing exposure 
to inundation as a function of space and on the right, imagine 
a map of vegetation on the Delta and when you look at those 
two, you see a remarkable correspondence between the index, the 
inundation index, and vegetation type.
    So for example, an inundation index of one to two-meter 
days per year corresponds with the presence of brackish wet 
sedge meadow, OK, so--which is a very salt tolerant species, 
which is why it can handle that inundation.
    So we went back to the modeling and assumed, the second 
time around, a 40-centimeter sea level rise, recomputed the 
inundation due to that sea level rise, recomputed that annual 
inundation index and what we see is quite remarkable.
    That level of inundation in one to two-meter days per year 
that used to be on the coast--that is on the coast now, would 
move seven kilometers inland with just a 40-centimeter sea 
level rise and presumably, the vegetation would move along with 
it.
    So clearly, the Delta is very sensitive and vulnerable to 
sea level rise. The terrestrial life will also be affected. Sea 
level rise will also be impacting the water bodies in the 
areas. Rivers will become more saline causing change in species 
distributions. Ponds on the Delta will become more saline due 
to inundation. Those ponds are critical for the life cycle of 
the nesting birds in the Delta. So they are going to be very 
vulnerable.
    So we have these great tools that we have developed and we 
are interested in not just applying them toward ecology, but 
also indiscernible communities and we recently submitted a 
indiscernible proposal to do just that, to help the city of 
Hooper Bay plan for the future, take into account sea level 
rise.
    A lot of these coastal communities have water resources 
infrastructure, like drinking water infrastructure or waste 
water, that are very vulnerable to sea level rise. Basically, 
water is going to get in their wells. They are going to get 
salty.
    I believe that with this approach that we have developed, 
we can look around the State and help assess the vulnerability 
of different communities and so I propose that as something 
that might be useful for you all to ponder.
    Another area that we have been working is, at least in our 
minds, is perhaps setting up a real-time--in a forecast system 
for inundation along the western Alaska coastline and I have 
talked with Amy Holman about this and the National Weather 
Service (NWS) people.
    We have, for a project on--funded by the Western Alaska 
Landscape Conservation Cooperative, we have a group from the 
National Oceanic and Atmospheric Administration (NOAA), who is 
building a storm surge model that covers the Bering Sea with a 
coarse grid approach and that model is running, essentially in 
real-time and also in forecast mode.
    We can take that data and use our fine-scaled model to 
translate projections of inundation on very high resolution for 
individual communities, which I believe would be a big 
improvement over currently what we are doing for these 
communities.
    We more or less have everything in place and we just need 
to maybe do a demonstration project and that would make Alaska 
more in line with what's done in the Lower 48 in terms of storm 
preparedness. Maybe I am at the end of my 5 minutes. Thank you 
very much.
    Chairman Begich. Thanks, Thomas. Let me go to Melanie 
online--I have been writing some questions down here, I want to 
ask the panel, but let's go ahead and if Melanie's online, go 
ahead and do your testimony.

   TESTIMONY OF MELANIE BAHNKE,\1\ PRESIDENT OF KAWERAK, INC.

    Ms. Bahnke. Yes, Senator, can you hear me?
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Bahnke appears in the Appendix on 
page 46.
---------------------------------------------------------------------------
    Chairman Begich. Yes, we can, thank you.
    Ms. Bahnke. All right, thank you, Senator Begich, Senator 
Paul, and Members of the Senate Subcommittee for the 
opportunity to testify. I am Akighqukaaghaq, Melanie Bahnke and 
I am the President of Kawerak. I was raised on St. Lawrence 
Island, where you truly can see Russia from your house. 
Senator, we are looking forward to your visit tomorrow to Nome.
    Chairman Begich. I am looking forward to it.
    Ms. Bahnke. Again, thank you for giving me this opportunity 
to present our challenges and recommendations. I am pleased 
that Congress and the Administration is focusing attention on 
tribal communities, erosion, disaster and community relocation 
issues.
    The Bering Strait Region of Alaska is about the size of 
West Virginia. The population in our region is over 9,000, and 
the region is not connected to the rest of Alaska by road or 
rail. Seventeen of the 20 villages are not accessible by road 
at all from our hub community of Nome, except for in the 
summer. In winter, the ocean freezes over and barge services 
are cutoff. Air transportation for freight and passengers is 
thus costlier in the winter. All of the communities in our 
region are located on the sea coast or shores of rivers.
    Until compulsory education was imposed upon our people, 
Alaska Natives in our region often followed the game and 
established temporary settlements based on hunting and 
gathering seasons. With the influx of the missionaries, who 
were paid by the Federal Government, permanent settlements were 
established and in the 1930s, the Bureau of Indian Affairs 
forced some residents to relocate to the coast to save on 
mobilization costs.
    We have seen the effects of climate change and erosion 
issue firsthand. Our organization has a Natural Resources 
Division and we have researchers who have collected data from 
hundreds of hunters and gatherers in our region, who have lived 
their whole lives observing the environment and they have 
witnessed many changes, such as a rise in sea level, later 
freeze-up, thinner ice, permafrost melting, changes in weather 
patterns, shorter winters, hotter summers, and due to later 
freeze-up of the ocean and absent physical protection from 
severe fall storms, several of our communities are experiencing 
rapid erosion of their shorelines and some may be better off 
relocated.
    The Bering Strait Region has five villages in imminent 
danger posing threat to life and property. The 2011 Bering Sea 
winter storm was declared a disaster by President Obama. The 
storm threatened coastal communities because there are no 
current revetments, sea walls, protection in our villages, 
except for in three. Flooding occurred. Power was cutoff. Air 
transportation was cutoff and communication to some of our 
villages was lost for several hours. People were literally 
stranded and cutoff from the outside world.
    Making things even worse, the threat of manmade disasters 
loom over our region as the increase in shipping through the 
narrow Bering Strait is being experienced. In 2012, we had an 
estimated 480 transits through the Bering Strait. This number 
might not seem high, but when you consider that the Bering 
Strait is only 50 miles wide at its narrowest point, is shallow 
and that the traffic is occurring in a condensed amount of 
time, there are risks for disasters.
    Our Federal, State, local and tribal governments are ill-
prepared for both natural disasters and manmade disasters in 
our region. There's no lead agency spearheading comprehensive 
efforts to prevent, mitigate and respond to disasters and there 
is a lack of coordination among the agencies that are tasked 
with carrying out the splintered components of these efforts.
    Resources to carry out projects in our region have been 
limited. Often funding opportunities require a cost/benefit 
analysis that factors in population or require a local cost-
share that is prohibitive.
    Even when funding has been made available, we have 
experienced challenges in implementing practical solutions due 
to restrictive funding regulations. Excuse me, splintering 
funding sources together to address the comprehensive impacts 
of a community disaster is challenging, to say the least.
    We do offer some recommendations. We recommend that the 
Immediate Action Work Group (IAWG) be reinstated. This model is 
an exemplary model of coordinating State, Federal, and local 
leaders to prioritize projects, coordinate resources and 
implement projects. Resources should be allocated to support 
the coordination of efforts.
    Priorities that have already been identified should be 
funded. We also ask that the U.S. Corps of Engineer's 2009 
recommendations report be implemented and if a cost-share 
structure is necessary, that cost-share structure should be 
between the Federal Government and the State government, not 
local communities who practically have no tax base.
    I also recommend that red tape be eliminated. We need to 
identify and eliminate regulations and policies that are 
prohibitive to access of funds. Identify and consolidate 
disaster funding; the current splintering of funding sources 
for disasters is complicated and cumbersome. Disaster 
prevention, planning, mitigation and response for communities 
should be viewed holistically and the resources required to 
fulfill these functions should be consolidated and provide 
flexibility.
    Emergency preparedness support should be provided. Each 
community and region should have an emergency operation plan in 
place, as well as the equipment and resources necessary to 
carry out their plan should a disaster strike. Typically, when 
we are hit by storms, our storms are not hitting just one 
community. So therefore, we feel that it is necessary to have a 
regional disaster plan, emergency operation plan in place.
    We request that U.S. Coast Guard (USCG) presence in the 
Arctic be increased and that a permanent U.S. Coast Guard base 
in the Bering Strait, which is the choke point between Russia 
and Alaska is reestablished and last, we ask that a model for 
practical collaboration with rural communities and Tribes be 
implemented.
    The U.S. Coast Guard has actively established 
relationships, is communicating with and coordinating with 
Tribes in our region of Alaska. Other agencies, such as the 
Federal Emergency Management Agency (FEMA), the Corps of 
Engineers and the Departments of Homeland Security (DHS), both 
State and Federal, should follow suit.
    Again, thanks for providing the opportunity to provide you 
with some insight to the issues and offer recommendations. The 
benefits of allocating resources proactively, as opposed to 
after a disaster, should be considered. No person in the most 
developed country in the world, regardless of ethnicity, should 
be subject to the threat of loss of life due to conditions that 
can be mitigated by governmental actions.
    The United States is an Arctic nation and has an obligation 
to assert its sovereign authority and protect national 
interests. With that authority comes responsibility for 
disaster prevention, mitigation and response, especially in an 
area such as the Bering Strait region, which is exposed to 
international ocean traffic. Kawerak stands ready to be a 
partner with our Tribes, local, State and Federal Governments 
toward this end. Thank you.
    Chairman Begich. Thank you very much, Melanie. I appreciate 
your testimony. I am going to spend a few minutes here asking 
some questions of all three and thank you, your last point 
there--I know some complain about government overreach, but 
this is probably one place where the Federal Government has a 
role and responsibility.
    Let me first, if I can, with Thomas, I want to make sure I 
understand what you laid out there and the way I am going to 
analyze it or say is hopefully--it makes sense and you can tell 
me if I am wrong here, but the concern is because of the low 
level, the ground level of Alaska lands, the rising sea level, 
which is salty water, as it continues to erode--create erosion 
or erode the areas around the coast or it moves in as sea level 
rises, it is now contaminating, and these are my words, 
contaminating the fresh water, as well as other types of 
vegetation that the Alaska Native community lives on.
    For example, there may be areas, if you go seven kilometers 
in, you could wipe out an area, for example, where berry 
gathering is done because now you have salt water mixing in and 
you may have areas that are habitat for bird nesting, but also 
as potentially areas where there are egg collecting, as well as 
bird harvesting for subsistence use. So you may have impact on 
their habitat and they may not come back and then potential 
fresh water fish, now have salt water entering their areas.
    Putting that aside, you then have this water interfering 
with water systems that some of the communities are pulling 
water right out of the current lakes for their water resources. 
Am I saying that right?
    Dr. Ravens. I think you basically got it right.
    Chairman Begich. OK.
    Dr. Ravens. One thing I would just point out.
    Chairman Begich. Let me make sure, that was two kilometers 
versus four--I mean, two kilometers--two centimeters here 
versus this, right? That's the distance we are talking about, 
the change, the two modelings you gave?
    Dr. Ravens. The 40 centimeters sea level rise.
    Chairman Begich. Yes affirmative, 40 centimeters.
    Dr. Ravens. So average sea level rise----
    Chairman Begich. Over a year?
    Dr. Ravens. No, whenever it happens, so----
    Chairman Begich. Just a surge?
    Dr. Ravens. So you know, the National Climate Assessment 
came out recently and they projected a number of possible 
scenarios for sea level rise, say by the year 2100 and .4 
meters or 40 centimeters is probably on the low end and then, 1 
or 1\1/2\ is right in the middle and then 2 is on the high end. 
So we are expecting----
    Chairman Begich. So you're measuring--your modeling is 
done--these are my words again, your--from two centimeters to 
40, your extreme measure is actually the low measure?
    Dr. Ravens. Well, I'm sorry, it wasn't two centimeters, it 
was two meters.
    Chairman Begich. Two meters, OK.
    Dr. Ravens. So the delta surface is two meters----
    Chairman Begich. Right.
    Dr. Ravens. Above mean sea level and then there is 
something like a meter or a meter-and-a-half tidal range.
    Chairman Begich. Right.
    Dr. Ravens. So as it is now, on a regular basis, there is 
flooding of the delta.
    Chairman Begich. Right.
    Dr. Ravens. Almost every year, there is flooding with----
    Chairman Begich. That's the two centimeters?
    Dr. Ravens. It varies. The amount of flooding in a given 
year--typically, you will have a surge of about 2, 2\1/2\ 
meters, which is enough to inundate----
    Chairman Begich. Lots of areas.
    Dr. Ravens [continuing.] Tens of kilometers of the delta 
surface.
    Chairman Begich. Got you.
    Dr. Ravens. And so what I am saying is if you add 40 
centimeters on top of that----
    Chairman Begich. And then the surges occur?
    Dr. Ravens. Then the surges occur, then you are going to 
cover a lot more----
    Chairman Begich. Got you.
    Dr. Ravens [continuing.] Of the delta.
    Chairman Begich. And again, these impacts, and I was just 
over the area probably now 2 weeks ago with the Secretary of 
Interior and we flew to the Arctic. We went to Lonely Point and 
we could see literally the erosion as it occurs.
    It is not just a little bit of, people think that well, it 
is just a little bit of dirt falling off. It is big chunks 
because it is frozen. So as it eats away, and that chunk falls 
off and then it just starts to disintegrate.
    Dr. Ravens. Yes.
    Chairman Begich. Because you are falling into the salt 
water, so the ice, it is disappearing very rapidly.
    Dr. Ravens. Yes.
    Chairman Begich. And that dirt, literally just goes out.
    Dr. Ravens. Right, so amazingly, the north coast of Alaska, 
most of it is 70 percent ice by volume.
    Chairman Begich. Right.
    Dr. Ravens. So it is basically a dirty ice cube and the 
Bering Sea----
    Chairman Begich. You mean that in a positive way, so let's 
make sure that's clear.
    Dr. Ravens. And as the Bering Sea warms up, and it is 
warmed up very rapidly in the last 30 years or so, it is 
essentially just thawing those coastal bluffs and we are, in 
some places, seeing erosion rates of 50 meters per year and you 
are right, and it falls in these huge clumps.
    Chairman Begich. Right.
    Dr. Ravens. It is called niche erosion block collapse and 
we have an excellent model of that process.
    Chairman Begich. But I saw the real live thing.
    Dr. Ravens. You saw the real thing?
    Chairman Begich. I mean, these were huge pieces of ground.
    Dr. Ravens. Yes, it is.
    Chairman Begich. It was not like a little piece like this. 
I mean, it was a pretty good size. So as it was chewing away 
underneath it.
    Dr. Ravens. Yes.
    Chairman Begich. It just literally came off.
    Dr. Ravens. Right.
    Chairman Begich. And then it just disintegrates.
    Dr. Ravens. Yes, and the size of those chunks is related to 
the polygons up there. If you were looking from the----
    Chairman Begich. Yes.
    Dr. Ravens [continuing.] Air, you see this sort of 
checkered board style----
    Chairman Begich. We think people from somewhere else did 
that.
    Dr. Ravens. Right, and so those lines, are ice edges. It is 
ice and that's the weak point in the structure of the tundra, 
so----
    Chairman Begich. Got you, kind of a fault line or the 
fracture lines?
    Dr. Ravens. Those are exactly right.
    Chairman Begich. And if I can turn to Melanie, and I will 
come back to you, Thomas, on a couple of things--well, let me 
just finish with you. You had mentioned there is some work you 
are going do in Hooper Bay. How is that funded? Is that a sea 
grant or is that--how is that----
    Dr. Ravens. There was a national sea grant RFP that we 
responded to. They funded 4 out of about 25 proposals, but not 
ours. So we proposed this work, but it did not get funded.
    Chairman Begich. So the real-time forecasting, and this is 
very interesting what you are talking about, because I can 
imagine NOAA folks are just ecstatic about this kind of 
information that they can get their hands on. I do not know if 
they are here with us.
    Yes, this is the kind of stuff they love. There's Amy in 
the back, so I am just guessing, this is like dreams for you to 
be able to do real-time forecasting. Is the issue, and I think 
I know the answer to this, but I just want to have you put it 
on the record, I mean, there's not enough resource we are 
putting into this kind of research, is that a fair statement?
    Dr. Ravens. Well----
    Chairman Begich. I mean, we are doing some, but not enough?
    Dr. Ravens. Basically, what we are doing now is, I am 
funded right now by the USGS.
    Chairman Begich. Right.
    Dr. Ravens. And the USGS Climate Center and also the 
Western Alaska Landscape Conservation Cooperative and so we are 
building all these tools and all I am saying is that while 
these tools that we have built up, really for ecological 
research, could really be put to service to help human 
communities.
    Chairman Begich. Right. To do better planning and 
strategies?
    Dr. Ravens. Basically, real-time, good information about; 
OK, we know a storm is coming. What is the best science that's 
available? What does that tell us the surge--what is the surge 
going to be in front of my house? What's it going to be over 
there? Is it going to be one meter? Is it going to be two 
meters 12 hours from now?
    Chairman Begich. Right.
    Dr. Ravens. So that people have the information that they 
need to plan. This is really what's happening in the Lower 48. 
There is not really a comparable system in place in Alaska at 
that resolution, as far as I understand it. It just so happens 
that we have all the pieces in place to do this right now. We 
just need someone to say, ``Do it,'' and kick in a little bit 
of money and we could do it at a particular village as a 
demonstration project.
    We could demonstrate that, OK, these guys actually--they 
were not making it up. They can actually produce these 
projections. They're very accurate and then we will see, aha, 
we can do this. It costs so many dollars. Is this something we 
want to expand to other communities?
    Chairman Begich. Can you, for the Committee, at some point, 
prepare something that explains doing a demonstration project, 
what it might entail, what kind of agency coordination and what 
kind of costing would be required?
    Dr. Ravens. Sure.
    Chairman Begich. As best you can.
    Dr. Ravens. Sure.
    Chairman Begich. I mean, it is not something, especially on 
the dollars, we would hold you, but just so I can get a better 
sense. Would you do that for the Committee?
    Dr. Ravens. I would be happy to.
    Chairman Begich. Great. Let me, if I can, I am going to go 
to both Melanie and Vivian and you heard me kind of describe to 
Thomas--well, how I envision of this and I will start, if I 
can, with you, Vivian, because I think in your comments, you 
made some very positive statements about some of the work you 
are doing, but also, the concern you have is how it is 
affecting your, what is the right way to say it, your ability 
to harvest for subsistence and other uses. What was just 
described to me from an engineer/scientific, that is what you 
are seeing? Is that a fair statement?
    Ms. Korthuis. Yes.
    Chairman Begich. And do you think of your 56 communities, 
you had mentioned some have plans, some do not. Do you know how 
many do have plans now, roughly?
    Ms. Korthuis. Two years ago, we took a survey of our 
communities to find out of the 56 Tribes, who has current 
community plans, which obviously includes an emergency 
preparedness plan, and of our 56 Tribes, only seven had current 
plans.
    Chairman Begich. Current plans.
    Ms. Korthuis. And we have the survey that we took, we have 
plans in our region that are from the 1970s to 1980s and maybe 
the seven plans that were completed recently are actually 2 
years old now.
    Chairman Begich. OK, and is--weighting the biggest 
stumbling block for the communities to develop those plans, is 
it financial resources? Is it expertise? Is it expertise within 
the Tribes?
    Ms. Korthuis. No, I think the communities have the ability 
to plan.
    Chairman Begich. OK.
    Ms. Korthuis. And I think the opportunity for those--the 
Tribe, like the tribal government, the city government, the 
health corporation, all the entities that are involved, the 
schools, is the----
    Chairman Begich. The village corporation?
    Ms. Korthuis [continuing.] Opportunity for a facilitator to 
come in and help the community lay it out.
    Chairman Begich. So you think that the tools are there, it 
is just someone needs to help just facilitate it?
    Ms. Korthuis. Yes, with the funding.
    Chairman Begich. That's the biggest challenge?
    Ms. Korthuis. We would love to do that.
    Chairman Begich. OK, let me ask you, from your region, are 
you doing, one of the things we are talking about a lot here is 
not only preparing for the emergencies, but the mitigation of 
emergencies, getting prepared for what we know, like for 
example, if we had this real-time forecasting, you could 
probably see some of the villages that would, if certain surges 
occur, what could really happen.
    Do you have projects now that you are doing that are 
preparing or kind of mitigating or preparing for potential 
erosion situations, flooding situations, as the climate 
continues to change and the sea levels change? Is there 
projects that you are doing that you could describe?
    Ms. Korthuis. I can not point to a specific project, but we 
do have the ability to--our region is so large and we have so 
many communities. We have 48 permanent settlements.
    Chairman Begich. Right.
    Ms. Korthuis. And they are all along two major rivers and 
along the Bering Sea coast. I brought a map of our region, if 
you want to refer to that.
    Chairman Begich. OK.
    Ms. Korthuis. So the map indicates that we have 840 miles 
of coastline, just coastline, which does not include the Yukon 
River and the Kuskokwim River. So each village has its own 
particular environment. As a region, we are proposing to 
create, what we are calling the Western Alaska Emergency 
Response Center.
    Chairman Begich. Right, you had mentioned that.
    Ms. Korthuis. And encompassed in that is the ability to 
take--coordination of the whole region in terms of anything 
that we can witness; floods----
    Chairman Begich. The erosion activity.
    Ms. Korthuis [continuing.] Erosion, all those different 
aspects of what's happening in our villages.
    Chairman Begich. Is the idea of the center, would that be a 
local, State, Federal type of funding source or what's your 
thinking there?
    Ms. Korthuis. Yes.
    Chairman Begich. OK.
    Ms. Korthuis. We would like to bring all the players 
together for that.
    Chairman Begich. Do you have a proposal already?
    Ms. Korthuis. Yes, I do have a proposal.
    Chairman Begich. Will you submit that to the Committee?
    Ms. Korthuis. Yes, I will do that.
    Chairman Begich. Fantastic. Let me ask Melanie, you have 
heard some of the conversation we had. Let me ask you, you had 
several recommendations and one of them, which you have talked 
about, was the ability of better coordination and lead agency. 
Would you be willing to expand on that and then, you mentioned 
an action work group? Can you kind of help me understand that a 
little bit more? I understand the lack of coordination, but 
what is the action work that you are thinking of and then, 
would that help get to that challenge?
    Ms. Bahnke. Yes, thank you, Senator. The Immediate Action 
Work Group began as an ad hoc group and it resulted in the U.S. 
Corps of Engineers' 2009 recommendation report. Following that, 
the creation of the Alaska Governor's Executive Subcabinet on 
Climate Change.
    The goal was to address known threats to communities caused 
by coastal erosion, thawing permafrost, flooding and fires. 
This working group was effective because key decisionmakers, 
who actually had authority for resource allocation, were 
involved from the various Federal, State and local governments.
    They all participated in the early stages of the project 
that were identified by priorities as the group were 100 
percent federally funded from the Corps of Engineers under what 
was Section 117 of the Energy and Water Development Act of 
2005.
    The next stages would have required a local match of 35 
percent and the Corps would have provided a 35 percent match 
and then the State would have provided the 65 percent funding. 
In 2009, as you are aware, Congress repealed Section 117 and 
then in 2010, Congress enacted Section 116, which requires 
projects to be cost-shared.
    One example of the amount of cost-share that would have 
been required for a revetment project in Shishmaref is that the 
local community would have had to come up with $6 to $8 million 
dollars. This project was not completed.
    So I think the model, itself, is a great model of 
coordinating State, Federal and local leaders to prioritize 
projects, coordinate their resources and actually carry out 
projects.
    Chairman Begich. If I can ask you now, does the Executive 
Subcommittee, the Alaska Executive Subcommittee on Climate 
still exist? Does any----
    Ms. Bahnke. I am not aware----
    Chairman Begich. I will ask the next panel. I was kind of 
asking it through you, looking at the audience here. So I saw a 
couple of acknowledgments here, that I'll be able to ask that 
on the next panel. Let me followup on this then, so the idea--
one flexibility that you had also mentioned was, if there is 
going to be a required match, which as you remember, the 2005 
117 required no match for these areas, but if there is going to 
be a match, then what you want to make sure happens is there is 
flexibility so it is not just local community, but the State 
can also match. Is that what you're also wanting to see happen?
    Ms. Bahnke. I would prefer that the State be required to 
provide the match. Our local communities have limited 
resources. We don't have a tax base.
    Chairman Begich. Understood.
    Ms. Bahnke. Kawerak has utilized their own funds and put 
them up as match toward several Corps of Engineer projects. In 
fact, we have several projects right now that we're working on 
with the Corps where we are providing tribal funds as the 
match.
    Chairman Begich. Great. I know the other issue around the 
Corps, and that is this cost/benefit analysis, which I know 
I'll talk to the Corps about on the next panel, but your point, 
and I want to make sure I'm clear on this and I want to make 
sure this is part of the record, the way that cost/benefit 
analysis works really for communities of your size and Vivian's 
communities, they are too small of populations and when you do 
the analysis basis with population as a significant part or a 
part of the equation, you can not compete against larger cities 
that have bigger problems. Is that a fair statement?
    Ms. Bahnke. Yes, that is a very fair statement.
    Chairman Begich. And so what you are looking for is some, 
at least, recognition because--I will use an example. In a 
community with a big population, the erosion that may be 
occurring that the Corps is doing the cost/benefit analysis, it 
may be a small project, maybe it is a few homes, but because 
the population is so big, it makes sense because the cost/
benefit analysis works, but in a village, you may have the 
whole village disappearing into the ocean, but if there is not 
a big enough population, the cost/benefit analysis does not 
work. Is that----
    Ms. Bahnke. Exactly.
    Chairman Begich. OK, and I think we have recognized this 
and it is something--we have talked to the Corps and we are 
trying to figure out the right solution here, because if we can 
find the right mix, and it may be that we have to recognize, as 
we recently did in the piece of legislation, we changed some 
language and we included what we call subsistence communities 
in one of the definitions, which is for small and boat harbor 
renovations, because what was happening, the definition was in 
the Corps bill that just came out of the Senate, the 
definition, it wouldn't have worked for us.
    By adding that in, it creates an ability for small boat 
harbors, small areas, small populations, villages to be able to 
qualify for this money. So that is what, I guess, I am just 
speaking out loud here, maybe that is the kind of language we 
need to be speaking about, subsistence communities, because the 
impact is much more dramatic than just a few homes. It is the 
ability to survive.
    Ms. Bahnke. Correct, and we can not just up and move. I 
mean, we are not connected to roads.
    Chairman Begich. Right.
    Ms. Bahnke. It is not like if you are in a town in 
Washington where you can just move, pick up your bags and move 
to another town.
    Chairman Begich. Well, it is like what happened when----
    Ms. Bahnke. Permanent settlement where our people were 
forced to settle in for the most part when the compulsory 
education became a requirement.
    Chairman Begich. Very good.
    Ms. Bahnke. I would like to point that out because the 
Federal Government had a hand in this.
    Chairman Begich. Yes. No, your history, I appreciate you 
putting that into the presentation. Because of time and we want 
to get to the next panel, again, I want to thank all three 
panelists that are here. We have your written testimony. There 
will be some additional questions I will submit and, I will 
talk about at the end of this meeting, I will submit for the 
record for further questions, but I really do appreciate the 
input and the folks who are on the ground, literally, living in 
a changing environment in Alaska and Thomas, thank you for your 
information and some interesting ideas on how to get better 
data that can help us do better planning. So thank you all very 
much.
    We will pause for just a second while we change out panels 
here and they do a lot of nameplate changing here. Thank you 
all very much, Vivian, Melanie, Thomas, thanks.
    Again, thank you for the next panel, and as the panel is 
here, you heard some of the questions. The way I like to run, 
at least the committee hearings I have and listening sessions 
that I do, is you should feel comfortable as you are doing your 
testimony, if there is an answer you want to give to any of the 
questions that were derived in the first panel, feel free to do 
that. That is fine with me. We just want to keep them to the 
limits of time so I can kind of squeeze in as many questions as 
possible.
    I will do the same thing; I will introduce all of you and 
then I will just start in the same order I did introductions. 
First, David Miller is Associate Administrator for the Federal 
Insurance and Mitigation Administration with the Federal 
Emergency Management Agency. That is a big title. I am sure 
there is some abbreviation for it that you will tell me about.
    Mr. Miller has served in this position since 2011 and 
previously served as Administrator of the Iowa Homeland 
Security Emergency Management Division from 2004 to 2011.
    Ken Murphy is the appointed Regional Administrator for FEMA 
Region X. Mr. Murphy is responsible for developing, 
administering, coordinating FEMA's mitigation, preparedness, 
response, recovery programs for the State of Alaska, Idaho, 
Oregon and Washington. Thank you for being here.
    Colonel Christopher Lestochi, did I say that right?
    Col. Lestochi. Very close, Senator.
    Chairman Begich. Thank you very much, assumed command of 
the U.S. Army Corps of Engineers Alaska District on July 2, 
2012. I always will say this; we like that Alaska has its own 
district, just a little plug there.
    Col. Lestochi. Thank you, sir.
    Chairman Begich. John Madden is currently the Director of 
the Division of Alaska Homeland Security and Emergency 
Management and is not an unfamiliar face to this committee. He 
has testified more than once and was appointed in 2007. John, 
again, I was glad last night--was your last night as the 
President of the National Emergency Management Association 
(NEMA) and I know they had the forum here and they presented 
you with a little recognition and again, congratulations for 
your national role in NEMA as the President of the organization 
and for Alaska, we thank you for kind of representing us on 
that national level. So thank you very much for doing that.
    Let me go ahead and start with David, and then we will just 
kind of go down this line here.

TESTIMONY OF DAVID MILLER,\1\ ASSOCIATE ADMINISTRATOR, FEDERAL 
            INSURANCE AND MITIGATION ADMINISTRATION

    Mr. Miller. Thank you, sir. Chairman Begich, thank you for 
the invitation to appear before the Subcommittee. I am David 
Miller the Associate Administrator for the Federal Insurance 
and Mitigation Administration of the Department of Homeland 
Security--it is a long title. I agree, sir, and I do not----
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Miller appears in the Appendix on 
page 50.
---------------------------------------------------------------------------
    Chairman Begich. I think the last comments from Melanie was 
cut the red tape. So maybe she may cut those titles down.
    Mr. Miller. As far as I said, I am an Associate 
Administrator. I am not really an administrator. I just 
associate with them. It is an honor to be here today, though, 
with the other witnesses and represent the building of strong 
partners in our efforts to help the people of Alaska build, 
sustain and improve their capability to prepare for, protect 
against, respond to, recover from and mitigate against 
actually, not just the hazards, but the uniqueness of the 
hazards and the circumstances that you face here in Alaska.
    As the Subcommittee is aware, FEMA is the lead Federal 
agency responsible for coordinating disaster response, recovery 
and mitigation efforts following Presidentially declared 
emergencies and we use our programs and authorities that have 
been authorized by Congress and the President to meet the needs 
of the community. Our programs are intended to supplement that 
response activities and recovery programs of States, local 
governments and Tribes through grants, as well as through 
technical and planning assistance.
    Our mitigation programs are guided by the National 
Mitigation Framework, which serves as a common platform for 
coordinating and addressing how the Nation manages risk. The 
framework also offers guidance on how the whole community can 
work together to build resiliency and reduce long-term 
vulnerability.
    I would like to tell you about specific programs we offer 
to aid communities in Alaska and across America. Our Pre-
Disaster Programs include the Pre-Disaster Mitigation Grant 
Program, the Flood Mitigation Assistance Program and the A 
National Flood Insurance Program (NFIP).
    The Pre-Disaster Mitigation (PDM) Program funds mitigation 
projects and planning efforts identified and prioritized in 
State and local mitigation plans. This competitive grant 
program is funded through the annual appropriations process and 
includes projects such as the development of all hazard 
mitigation plans, seismic retrofitting of critical public 
buildings and the acquisition or relocation of flood prone 
properties located within flood plains.
    The Flood Mitigation Assistance Program provides funding 
for structures located in the NFIP, participating communities. 
It includes projects to alleviate, relocate and acquire flood 
prone structures, as well as projects to upgrade culverts, 
building detention ponds and improve local storm water 
management facilities.
    Flood Grant Programs in Alaska include $600,000 provided to 
the coastal village of Shishmaref in 1998 for relocation of 
nine homes to higher ground. The NFIP, the Flood Insurance 
Program, currently has 32 participating communities in Alaska, 
representing boroughs, cities, towns and Alaska Native 
villages.
    Collectively, they maintain $735 million in flood insurance 
coverage. Since 1978, the NFIP has paid 581 claims for $5.9 
million to Alaska residents. Twenty-eight of the 3,022 policies 
statewide, are subject to coastal flooding or 3,022 communities 
statewide are subject to coastal flooding and erosion hazards.
    Many of those communities have elected to participate in 
the NFIP--are also eligible to participate in the community 
rating system, which provides a flood insurance premium 
discount for property owners who engage in flood plain 
management activities.
    Community participation in the CRS in Alaska is relatively 
high when considering the State's small number of NFIP 
participating communities in the national average, with 18 
percent participating. Here in Anchorage, the community 
receives a 20 percent discount on their premiums through their 
participation in the NFIP and CRS.
    FEMA also offers assistance to State tribes and communities 
and individuals following disasters through its Public 
Administration Program, Individuals and Households Program and 
Hazard Mitigation Grant Program (HMGP). The Public Assistance 
Program offers assistance for the restoration of public and 
certain private nonprofit facilities damaged by an event and 
reimburses cost associated with emergency protective measures 
and debris removal.
    The Individual and Households Program helps ensure the 
essential needs of individuals and families are met after 
disasters so they can begin the road to successful recovery. 
The Hazard Mitigation Grant Program provides grants to State, 
local, and tribal governments to implement long-term hazard 
mitigation measures after a major disaster declaration.
    Of the $29.6 million in Hazard Mitigation Grant funds, 
obligated in Alaska since the inception of the program, $7.5 
million or 25 percent has been spent on relocation projects for 
Alaska Native villages.
    While erosion control may be an eligible project under the 
HMGP, the scope of erosion in Shishmaref, for example, would 
require a major project, generally implemented by agencies, 
such as the Corps of Engineers, which has specific authority 
for these types of projects.
    FEMA does not fund major flood control projects of provide 
assistance for activities for which another Federal program has 
a more specific or primary authority to provide.
    In conclusion, FEMA will continue to be an active partner 
in efforts to address the complex vulnerabilities in Alaska and 
we are committed to doing whatever is within our authority to 
help the people of this great State. We are aware of the unique 
challenges on the ground and will continue to work with our 
partners through our regional office to develop creative 
solutions to meet the needs of Alaskans resilient people. Thank 
you and I would be very happy to answer any questions you may 
have, sir.

 TESTIMONY OF KENNETH MURPHY,\1\ REGIONAL ADMINISTRATOR REGION 
X, FEDERAL EMERGENCY MANAGEMENT AGENCY, DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Murphy. Thank you, Chairman Begich for the invitation 
to testify before the Committee today. I have seen many 
familiar faces in my last 3 years here working and improving 
with the State and local communities' emergency management for 
all Alaskans.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Murphy appears in the Appendix on 
page 50.
---------------------------------------------------------------------------
    At FEMA, we are aware of the unique issues and challenges 
that Alaskans face preparing for and recovering from a 
disaster. We also appreciate and try to understand fully the 
environmental challenges and we acknowledge that FEMA is only 
part of the team dedicated to responders, who work together to 
ensure that we are ready to respond to imminent disasters in 
the Arctic.
    Together, we determine how to apply the right programs and 
resources in a way that prioritizes the needs of the survivors. 
We look to all of our partners to bring their best ideas and 
solutions to the hazards and the environmental conditions 
facing Alaskans.
    Survivors deserve the whole spectrum of services, resources 
and programs available at each level of the government. No 
single agency will be able to meet all the needs at one time. 
It is truly a whole community effort.
    Today, I will just highlight a few examples of what FEMA is 
doing in Alaska to improve our ability to respond effectively 
during extreme weather events and more importantly, provide 
some examples of ways we are supporting community and state-
based efforts to identify hazards, reduce vulnerabilities and 
increase resilience.
    First and foremost, communities need to have access to 
current information to assess their vulnerability, create 
strategic plans, prioritize hazard mitigation strategies. Over 
the last 5 years, FEMA has provided over $2 million to the 
State to support local planning through Pre-Disaster Mitigation 
Programs.
    Ninety-three communities currently have an adopted 
mitigation plan. Each of these plans are formed by local 
feedback and in many cases, multiple jurisdictions participated 
in the entire planning process. With these planning efforts, we 
have also explored several low-cost projects to design 
community-specific vulnerabilities, including regionally, a 
35,000 retrofit program project here in Anchorage and in 
Kodiak.
    Another crucial step in increasing community resilience is 
through active participation and large-scale exercises, like 
the upcoming Alaska shield exercise. Region X is partnering 
with the State of Alaska in its biannual exercise Alaska shield 
series going back to 2005.
    In 2010, FEMA sent over 50 staff and several emergency 
vehicles to Alaska to participate in this exercise. Through 
real-time simulations, we have tested the State and FEMA's 
ability to perform critical functions in extreme cold weather 
conditions, as well as our ability to sustain first responders 
arriving in from the Lower 48 States.
    2014, FEMA will again be committing to substantial 
resources to participate in the exercise celebrating the 50-
year anniversary of the 1964 earthquake and we will be working 
on testing on the ability to do our job in conjunction with the 
State to deal with severe disasters up here, survivors in 
extreme cold weather conditions.
    One final example of our regional capacity to meet the 
needs of rural Alaskan communities is our disaster response in 
the community of Eagle. In June 2009, the Yukon River flooded 
causing major damage resulting in a Presidential disaster 
declaration. During the earliest days of the response, we 
worked with the community and our partners of this State to 
develop a strategy to better understand how vulnerable the 
community was to spring breakup.
    Region X experts developed a series of products that helped 
the community and helped them make very difficult decisions to 
not rebuild in the hazardous areas of Eagle. Our priorities to 
create these tools and support the immediate and long-term 
recovery needs of local survivors.
    Eagle was flooded again this spring, but only six homes 
were damaged. The old village of Eagle suffered no impacts 
where we actually moved the homes. The citizens, as a group and 
as a community, chose to relocate outside the hazard areas 
defined by our analysis in 2009. Eagle is safer and a more 
resilient community today due to the collective efforts of many 
response agencies.
    We are committed to providing quality information, programs 
and products that give communities the tools they need to make 
informed decisions about risk. Harsh climates, environmental 
challenges necessitate proactive choices and a unified 
response. I am a firm believer that today's preparations 
predict tomorrow's outcomes. In Alaska, we are working 
tirelessly with our partners to ensure a safer tomorrow for 
Alaska. Thank you, Mr. Chairman.
    Chairman Begich. Thank you very much. Colonel.

   TESTIMONY OF COLONEL CHRISTOPHER D. LESTOCHI,\1\ DISTRICT 
 COMMANDER ALASKA DISTRICT, PACIFIC OCEAN DIVISION, DEPARTMENT 
          OF THE ARMY, U.S. ARMY CORPS OF ENGINEERING

    Col. Lestochi. Chairman Begich, thank you for the 
opportunity to appear before you today to discuss coastal storm 
damage and erosion issues in Alaska. Today, I will provide 
everyone a brief review of Corps erosion authorities and 
programs, highlight some of the challenges regarding coastal 
erosion affecting Alaska communities.
---------------------------------------------------------------------------
    \1\ The prepared statement of Colonel Lestochi appears in the 
Appendix on page 60.
---------------------------------------------------------------------------
    The Corps has several civil works authorities to address 
flooding and erosion problems. These Congressional 
authorizations include the Continuing Authorities Program, the 
Planning Assistance to States Program, the Tribal Partnership 
Program, the Flood Control and Coastal Emergencies authority, 
and Alaska-specific authorizations, such as Section 116 of the 
2010 Energy and Water Development and Related Agencies 
Appropriations Act relating to Alaska flood, erosion and ice 
damage. Each of these authorities has different implementing 
rules and limitations.
    In addressing erosion problems, the Corps works closely 
with local, State, Federal, tribal, and private interests to 
understand and incorporate the concerns represented by these 
various stakeholders. The Corps weighs the concerns, balances 
the needs, and examines the risks, costs and benefits to 
determine Federal interest and to make technically, 
environmentally, socially, and economically sound risk-informed 
decisions. I would like to outline the authorities related to 
coastal erosion and what we've accomplished under them. 
Specifically highlighting two authorities, which I will call 
Section 117 and Section 116, which were created for the unique 
needs of Alaska. My written testimony contains information 
regarding the other Corps programs and authorities that can 
address erosion issues.
    Section 117, now repealed, of the fiscal year 2005 
Consolidated Appropriations Act authorizes the Secretary of the 
Army to carry out at full Federal expense structural and non-
structural projects for storm damage prevention and reduction, 
coastal erosion and ice and glacial damage in Alaska, including 
relocation of affected communities and construction of 
replacement facilities. The Corps has utilized this authority. 
At Kivalina, 2,000 feet of shoreline protection was installed 
between 2008-2009. At Shishmaref, 1,375 feet of shoreline 
protection was installed between 2007-2009, and at Unalakleet, 
671 feet of shoreline protection was initiated or installed 
between 2007-2009.
    Section 117 was repealed in 2009. A new authority, Section 
116 of the Energy and Water Development and Related Agencies 
Appropriations Act, 2010, provides a similar authority, 
however; Section 116 requires cost sharing of up to 35 percent 
non-Federal, whereas Section 117 had no cost sharing 
requirement.
    The only Section 116 construction project undertaken to 
date is at Unalakleet, under the Alaska Coastal Erosion 
program, where the existing 671 feet of revetment is currently 
being extended to 1,500 feet. Appropriations under the heading 
of the Alaska Coastal Erosion program have been provided to 
fund projects using the Section 116 authority.
    As noted in the June 2004 Government Accountability Office 
report on Alaska Native villages affected by flooding and 
erosion, it's often difficult for the majority of Alaska's 
small and remote communities to finance and meet the multiple 
criteria required for Federal participation in implementing a 
solution. The remoteness of many of the areas, severe weather 
conditions, and the subsistence economies of the communities 
are major contributing factors. Perhaps the biggest challenges 
are the costs and risks associated with implementing erosion 
control solutions in these often remote communities. These 
include high mobilization costs, the limited construction 
season, and the difficulty of obtaining and transporting 
adequate rock and other materials.
    The March 2009 Alaska Baseline Erosion Assessment 
identified 178 communities that reported erosion problems. 
Twenty-six of them were deemed to warrant immediate attention. 
All 26 communities were contacted regarding ways the Corps 
could assist the communities. Six currently have active 
projects with the Corps. The remainder either did not request 
assistance or their projects were found to not meet the 
requirements of existing Corps programs or the non-Federal 
sponsor could not meet the cost-share requirements.
    The risks associated with the coastal erosion challenges in 
Alaska are complex. Risk considerations include determining the 
acceptable level of protection from erosion and flooding, 
deciding whether to relocate or remain, and consideration of 
the economic, social, cultural and environmental impacts.
    The Corps has the technical expertise to address solutions 
based on a systems approach and the capability to communicate 
and assist with risk-informed decisionmaking associated with 
the complex storm damage and erosion problems in Alaska's 
coastal villages. We are proud to work in collaboration with 
many Federal, State and local and tribal entities to assist in 
recommending and implementing solutions for coastal erosion 
challenges faced by these communities. Mr. Chairman, this 
concludes my statement. Again, I appreciate the opportunity to 
testify today and look forward to answering any questions you 
may have.
    Chairman Begich. Thank you, Colonel. John, thank you, 
again, for being here.

 TESTIMONY OF JOHN W. MADDEN,\1\ DIRECTOR, ALASKA DIVISION OF 
           HOMELAND SECURITY AND EMERGENCY MANAGEMENT

    Mr. Madden. Well, thank you, sir, for this hearing and this 
opportunity to present the State perspective in this dialogue 
on preparedness for all of our Alaskan communities and 
especially those most directly affected by extreme weather.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Madden appears in the Appendix on 
page 65.
---------------------------------------------------------------------------
    Our State faces an extreme range of hazards, from nature, 
from humans and from technology and we are no stranger to 
disaster. We have experienced a declared disaster on average 
every ninety days since statehood and the State of Alaska seems 
to create and sustain a posture of preparedness enabling a 
swift coordinated response, enabling an immediate comprehensive 
recovery.
    Our State handles most disasters with local and State 
resources. For the remainder, we do request assistance from the 
President, and here is just a short list, not a comprehensive 
list of our recent disasters; in 2007, a storm hit Kivalina 
with wave surges threatening to breach the barrier island. In 
2008, three separate storms from the Pacific and Arctic and the 
Bering caused severe floods in Nenana and breached the seawall 
in Wainwright.
    In 2009, Mount Redoubt volcano erupted 19 times from March 
to July, during which we had pandemic H1N1 in April and the 
breakup of the Yukon and Kuskokwim Rivers in May flooding 
dozens of communities with Eagle, Stevens Village and Tanana, 
the hardest hit and 527 fires burned close to three million 
acres.
    In 2010, a late season Bering Sea storm through--sea spray 
drawn from rare open water onto power lines onto Savoonga 
causing widespread power outage.
    In 2011, Crooked Creek on the Kuskokwim lost many 
residences in May from extreme flood and ice, and an extra 
tropical typhoon in October damaged dozens of western and 
northwestern communities with storm surges and high winds.
    In 2012, intensive January storms brought record snowfall 
throughout the Prince William Sound communities and in 
September and October, other storms hit south central Alaska 
with damaging winds up to 130 miles-per-hour and widespread 
flooding across 60,000 square miles and this year, in 2013, the 
Yukon River breakup, again, hit communities from Eagle to 
Emmonak with the heaviest damages at Galena and Circle.
    The common factor throughout all these events is that we 
cannot rely upon the 30-year weather averages to guide our 
planning, rather, we must expect the unexpected and plan for 
the uncertainty.
    In doing so, we consider the effects of the season, even 
the time of day, the demographics of the community, those with 
functional needs and we invest in the capabilities with the 
greatest probability of reducing risks, perhaps for more than 
one risk or hazard.
    Many of our recent disasters occurred for the first time in 
each location in 30, 40, or even 100 years. Decades without a 
disaster does not decrease the possibility or probability of 
one happening tomorrow. Early in its administration, the 
Governor directed us to develop essential capabilities that 
could be counted upon under all conditions and throughout the 
State.
    We have multi-tiered emergency communication system, 
completely independent of the commercial systems. We have a 
cache of emergency generators Arctic retrofitted and 
transportable by air, land and sea. We have a similar cache of 
water purification systems ready for deployment. In the last 
year, we developed the small community emergency response guide 
that distills many plans into a format for swift and decisive 
action. It even has a hole in it, so you can hang it on the 
wall so you can get to it very fast.
    The Governor's priority and the consistent support from our 
Legislature have enabled the transformation of Alaskan 
preparedness from a reaction into a discipline. March 2014 does 
mark the 50th anniversary of our 1964 Good Friday earthquake 
and we will commemorate that event with the largest, most 
complex exercise in our history.
    In the Alaska Shield 2012 exercise, we will simulate breaks 
in our supply lines and work to fix them. We will simulate 
disruption to essential services and work to bring them back. 
We will simulate separation of families and strive to reunite 
them and the consequences of the catastrophic earthquake mirror 
those of the extreme weather.
    In summary, the State of Alaska faces threats, hazards and 
risks far disproportionate to our population and our people, 
our economy, even our culture, are at risk of severe disruption 
if we leave our preparedness to chance.
    Our experiences with extreme weather in recent years 
require us to learn from the past, but not be blinded by it. 
Our greatest risks are the ones that we do not anticipate and 
for which we do not prepare, but through the leadership of the 
State, support of our communities, involvement with all of our 
partners, Alaska is a leader in the Nation in emergency 
management and our citizens deserve no less. Sir, with that, I 
will yield for all questions.
    Chairman Begich. Thank you very much. Thanks to the panel. 
Thank you for all the information and again, the same thing 
with the last panel, all your written testimony will be part of 
the official record and I appreciate that. I'll try to move 
through some questions. Time will limit me and I'll probably 
submit some for the record for some followup.
    Let me first, if I can, I want to start with the 
representatives from FEMA. A couple of things, first off, I 
know I had a hearing, I think it was a few months ago, where we 
talked about FEMA's Preparedness Grant Program. They delivered 
about 50 billion in preparedness grants over the years since 
the Department of Homeland Security was created.
    Do you know how much, and if you don't know this, maybe for 
the record you can get it for me, how much of that money in 
those grants for preparedness went to looking at mitigation 
capabilities? I don't know if you know that answer. If you 
don't know, don't guess, because that's a big chunk of money, 
since Homeland Security was started, but how much actually went 
to mitigation components?
    Mr. Miller. I think the answer lies in this, Senator, in 
that within the mitigation programs and within the flood 
mitigation programs under the National Flood Insurance Program, 
there are some allocations for planning that we have every year 
and we can get you the answer on how much of that money has 
been used.
    Chairman Begich. That would be great.
    Mr. Miller. That, notwithstanding, when you mentioned the 
Preparedness Grants----
    Chairman Begich. Right.
    Mr. Miller. These kinds of activities are also eligible 
under the EMPG Program, the grants----
    I have the wrong acronym, John.
    Mr. Madden. Emergency Management Performance Grant.
    Mr. Miller. Yes, under those grants and the problem with 
the----
    The problem with the EMPG grants is there is a lot of other 
eligible activities, too. So sometimes to pull out the planning 
activity and then how much of that is----
    Chairman Begich. Yes, it may be difficult.
    Mr. Miller [continuing.] Actual mitigation will be 
difficult.
    Chairman Begich. OK. If you can, for the Committee, get as 
much as that--as close as you can feel that, you can justify, 
this, we feel, is planning money for mitigation, because one of 
the things, as you know, in FEMA's list and also in our 
jurisdiction of the Committee, it's not only emergency 
preparedness, it's not only first responders, but mitigation 
and when you talk about a lot of what's happening here, besides 
the list that John gave, which is an impressive list in a 
negative way of all of our disasters, but good that we manage 
them, is how do we mitigate, especially as we are not looking 
at some of these issues with erosion and water temperature 
changes and other things. So if you could--that would be very 
helpful, I think.
    On top of that, you mentioned insurance and I want to, 
again, for either one of you, David or Kenneth, whichever one 
feels comfortable answering this, I know of the 225 Tribes or 
so, we have 100, I think, are qualified or could go and get 
flood insurance. I know the FEMA administrator has said that 
they want to move Tribes on a higher priority in flood prone 
areas to really figure out how to engage them in this process.
    Can you tell me what efforts FEMA is doing? I know the 
administrators talked about this, of getting Tribes who are in 
flood prone areas that could qualify for that insurance to get 
them focused and potentially applying for that. I do not know 
if you have an answer to that, but that, to me, is one of the 
parts of this equation, because if they are not applying, there 
is something--and they are qualified and the administrator has 
made it a priority, there is a gap. Somehow there is something 
missing here, so----
    Mr. Murphy. Senator, I know we work with the State on this 
all the time, to try and reach out together so that we combine 
our efforts. There is no formalized plan. We try and analyze 
the communities and then reach out to them to work with them to 
see what it would take to get them to join into the National 
Flood Insurance Program and preferably and hopefully become 
part of the community rating system, which can then decrease 
policy costs and that kind of thing, but we work through the 
communities and especially in each one of our disasters, if we 
have the opportunity, we will talk to the communities to see if 
they're eligible and work with them.
    Chairman Begich. You heard again from the last testimony, 
especially from the two that represented communities, this 
frustration and I am, as well, frustrated and that is what--
who's the lead agency on this type of issue, extreme weather 
changes that are occurring? I will use Alaska to New York.
    We just saw an incredible surge and I just saw one of the 
maps that if, and I forget the exact language that Thomas used, 
but if it had changed just a little bit more in the sense of 
the sea level rising so many meters, how deeper that would have 
gone into New York, Manhattan, everywhere else, who is--or if 
there is not, what should be the right group to really take 
charge of this, and I am going to lead to this, because I am 
going to jump over to the Corps in a second, as well as the 
State, because what I am sensing is everyone's doing kind of 
stuff and I think it is great, each piece, but there is this 
bigger picture of mitigation, because we don't want you all to 
keep repeating, like I will use the example, which I thought 
was a good one, which was Eagle, if I remember right.
    By mitigating the future, by moving those homes, we 
prevented the homes you rebuilt from being flooded, which is 
exactly what we want to do and not just homes, but preventing 
communities--and we are in a situation where we know it is 
going to happen. Like in New York, it was like a storm that 
occurred that no one anticipated. We can tell by modeling 
what's happening by sea level rise in communities where we are 
just a little bit above sea level and it is going to happen. So 
who is that person or that agency, whoever? David.
    Mr. Miller. I think it is in two parts. If you look at 
climate and climate adaptation issues as we are going through 
it and the President's directive on that----
    Chairman Begich. Right.
    Mr. Miller [continuing.] What we are finding is a lot of 
discussion on the data, how we look at the data and how it 
applies to existing programs and we are doing it within FEMA in 
our existing Stafford Act authorities and how we look at 
mitigation.
    We are looking at information on how we inform versus how 
we regulate within those environments, how we analyze data for 
benefit-cost and bring that in, but probably the better answer 
to your question; over this last year, we developed the 
mitigation framework that was recently released.
    Within that framework, it talks about the Mitigation 
Federal Leadership Group. We have had our first meeting of that 
leadership group, but we have done something----
    Chairman Begich. Who is the players in that? Do you 
remember right offhand?
    Mr. Miller. I can get you the complete list, but----
    Chairman Begich. Can you get us the list for it?
    Mr. Miller. It virtually involves almost every Federal 
agency. So it is the Corps of Engineers. It's the Department of 
Transportation (DOT), Department of Defense (DOD). It is----
    Chairman Begich. And what's the exact title they call it 
now?
    Mr. Miller. The Mitigation Federal Leadership Group.
    Chairman Begich. OK.
    Mr. Miller. But beyond that, a little bit different than 
the other leadership groups for the other components in that 
Federal piece, we are looking to expand our leadership group to 
include local and State partners and that's the part we are 
working through right now.
    So whether we enjoy the association that John was just the 
President of, the National Emergency Management Association----
    Chairman Begich. Indiscernible--speaking simultaneously----
    Mr. Miller [continuing.] The International Association of 
Flood Plain Managers, we are looking for that participation in 
the Mit FLG, as well as the Federal agencies that come in and 
local government agencies and roles, as well. We really want 
that mitigation framework, as it calls for, to exemplify the 
whole community aspects of mitigation and the investment and 
that may even include some private and private nonprofit 
enterprises in there. As that matures, to answer your questions 
and the coordination indiscernible--speaking simultaneously----
    Chairman Begich. You see that as the evolution?
    Mr. Miller. We will see that as the evolution.
    Chairman Begich. On top of that, I would recommend, and 
this is always--and I know the President has a directive on 
tribal consultation, to make sure that Tribes are part of this 
equation, because----
    Mr. Miller. Yes.
    Chairman Begich [continuing.] When you look at--it doesn't 
matter if it's just Alaska Tribes, but Lower 48 Tribes, water 
is land (sic) is the essence of being in the sense of their 
culture and their communities.
    Mr. Miller. Right.
    Chairman Begich. And when there are floods or there are 
lack of resources now coming because of erosion or flood or 
other activities, they are unable to survive, so----
    Mr. Miller. Well----
    Chairman Begich. When you list off, and I appreciate there 
were associations, the State agencies, but there is some good 
strong tribal organizations that I think would be very helpful 
in this mix of the next kind of layer.
    Mr. Miller. Yes, sir, and Tribes will be a big part of 
that. What we are working to understand now, as we go through 
this, plus the changes in our relationship with tribal 
government, the ability to ask for declarations, those things 
that (indiscernible--speaking simultaneously)----
    Chairman Begich. Right, which is a new part of the 
equation, which we really find as a great addition that----
    Mr. Miller [continuing.] Would be really (indiscernible--
speaking simultaneously)----
    Chairman Begich [continuing.] Now Tribes can request 
declaration of emergency, instead of waiting for the States--
whatever their ability or their lack of ability, it is----
    Unidentified Speaker. (Indiscernible--too far from 
microphone).
    Chairman Begich. Yes, I know, the number is----
    Mr. Miller. Yes, there are some required consultations that 
we do and one of----
    Chairman Begich. Yes.
    Mr. Miller [continuing.] The things that the staff is 
working to understand, especially with tribal governments, is 
the authorities they have. One tribal government is not the 
same as another.
    Chairman Begich. Exactly.
    Mr. Miller. So land use authority is the ability to 
regulate, which----
    Chairman Begich. Right.
    Mr. Miller [continuing.] Dovetails with the authority to 
(indiscernible--speaking simultaneously)----
    Chairman Begich. Like our Tribes, we have some that have 
land use authority. Some do not.
    Mr. Miller. Right, but we will walk through all of those 
things and it is our goal to get representation from the Tribes 
within the Mitigation FLG and how we walk through those 
processes.
    Chairman Begich. Yes. Let me, if I can, This is going to be 
kind of a question here, but moving over to the Corps at the 
same time, and that is, do you right now, if, for example, the 
Corps has a list of, two or three projects or I think you 
mentioned six communities you are doing some work with or so 
you have a list.
    Do you take both of you guys' lists and say, ``OK, we're 
about to do some preparedness planning in X community. You are 
doing some emergency planning or mitigation work or erosion 
work,'' does that happen or is that going to be the future of 
this group, because here's what I am going to use my simple way 
of looking at this.
    If I am the community, I will use Anchorage here, for 
example, I got to FEMA. I want some planning money. I want some 
preparedness money. So I apply for that, but I also have 
erosion issues, some other situations. So I go over here to the 
Corps and I talk to them.
    I am coordinating all the different things because I have 
to, but from the Federal agency standpoint, you are just 
getting these independent request, because I mean, my Corps 
request to you is not necessarily saying I am applying over 
here, even though they are different kinds of funding and 
different purposes or I am going to the Department of Housing 
and Urban Development (HUD) and saying I need some of this 
dollar (sic) for replacement housing.
    Does that occur or is that something that we want to 
emphasize for this new group or is it something that we have to 
think of separately so we are not doing bits and pieces from 
each one? Does that make sense? I don't even know, John, from 
your end, I know from the State, you are doing your piece, but 
I can tell you, from a local government, I'm just sitting here 
thinking, I do not ever recall us, when we went to the Corps, 
we did not go to FEMA to tell you what we were doing with the 
Corps. I knew what we were doing, but then you did not know. So 
give me some feedback and then I will flip over to 
(indiscernible--speaking simultaneously)----
    Mr. Miller. I will have the Colonel speak to this, too, 
because the Corps has done some very extensive work in this 
area. For our part in FEMA, there are some requirements that we 
have, especially in the mitigation and insurance programs and 
how we look at risk to coordinate with the Corps, also with the 
National Weather Service and a number of other Federal 
agencies, both in the assessment of the risk and the projects 
that we coordinate.
    One of the things that we are active with the Corps with, 
and perhaps the Colonel can talk about and I was whispering to 
John or to Ken as we were sitting there, is the Silver Jackets 
Program.
    Chairman Begich. Right.
    Mr. Miller. So you get an inner-agency cooperation and 
consolidation on top of that, but you are right, the further 
coordination and to move this along, even to a greater extent, 
will happen under organizational structures like the Mit FLG, 
because it is not just the Corps of Engineers and it also 
involves the Department of Agriculture (USDA), Department of 
Transportation and others that play a role in mitigation 
projects and how we thread those together.
    Chairman Begich. I will give you one--as I flip over to the 
Corps here, I will give you an example. When I was Mayor, the 
first 3 months of being Mayor of Anchorage, I remember, we had 
State roads. We have city roads. We had some local jurisdiction 
up in the hillside. So everyone was applying for their own 
thing. We had our road list for our Metropolitan Planning Area 
and then we had our Capital Grant money, different criteria of 
determining what's a priority and honestly, I stopped it all 
and I said, ``Here's what we are going to do; we do not care 
who the roads are owned by. We are going to prioritize them at 
the same prioritization of what's a risk,'' and we created, I 
think it was 10 points of prioritization, safety, so forth, and 
then we said, ``Wherever they fall, we do not care if they are 
State, Federal, local or local road district, wherever they 
fall, then we start down the list,'' and we had a lot of, 
resistence from--and I don't know if Thomas is still here, but 
I know from the Corps, I get it, if you are an engineer, and I 
do not know if you are an engineer by trade, but as an 
engineer, they are on a straight line, do not deviate. We are 
on a plan, do not start moving it around, and I remember we had 
lots of projects we had to say, ``No, they are not a priority 
anymore.''
    The end result was, to be very frank with you, in this 
city, we built more roads in 5 years than we built in 20, 
because we did not base it on jurisdiction. We based it on a 
mutual agreement of what's a priority and then attacked the 
problem with all resources, State, Federal and local and the 
net result was for--the people who live here know how many 
roads were constructed very quickly.
    So in this situation, my worry is we have a list of 26 or 
so pretty risky villages, in the sense of what could happen to 
them with a smaller list in there, a subset, and all hands on 
deck should be for those. So maybe you could additionally 
answer from that--I just want to give that example of where my 
concern's coming from based on my experience dealing with 
multiple layers on road construction issues.
    Col. Lestochi. I think to your first point, sir, about lead 
agency, I really think it depends on the nature, the mission 
that we are talking about. If it is a coastal erosion 
mitigation effort, then clearly, that's the Corps. If it is, 
housing, it is HUD. It changes from mission to mission.
    Chairman Begich. But let me pause you on that. If you are 
now dealing with erosion and there are houses falling into the 
water, someone has to lead this overall effort, because you----
    Col. Lestochi. Yes.
    Chairman Begich [continuing.] You could say, ``I'm going to 
solve the erosion problem,'' and then HUD comes along and says, 
``Well, where are we going to build those houses? You just took 
all the land we were going to put it in.'' So that's what I'm 
thinking of, is what's that body, and maybe it is this new 
group that says, ``This is how it has to be done,'' and then 
from there, there may have to me a regional approach to these 
issues because mitigation is so different than emergency 
response, because emergency response is immediate. Mitigation 
is prolonged emergency. When we look at erosion, we look at 
water depths changing, I will use tsunamis also, the debris 
that's coming over, these are prolonged disasters that are kind 
of creeping up. We can actually map them and we know they are 
coming. It is just the question of; what do we do?
    So I do not want to totally disagree with you, but I am 
concerned that that's the problem, because if you are taking 
away erosion, right, and we want you to do that, to solve that 
problem, but now the houses are gone, we have not solved a 
community problem and that the right place to do that erosion 
(indiscernible)? Maybe it is not. Maybe it is saying we should 
go somewhere else and relocate the village because the village 
decides they need to move to higher land. I do not know. Go 
ahead, I did not mean to interrupt you there, I just----
    Col. Lestochi. No, that's perfectly all right. I do not 
have the answer which Federal agency--I'm certainly not going 
to sign up my agency to be the----
    Chairman Begich. I am going to sign you up right now.
    Col. Lestochi [continuing.] Federal agency for all things, 
but----
    Chairman Begich. Do not worry, Colonel, I will just pass 
onto the folks back in D.C. you agreed. They will thank you for 
testifying.
    Col. Lestochi. But I do know we work closely with our 
agency partners on these matters. Take, for example, Kivalina--
--
    Chairman Begich. Yes.
    Col. Lestochi. There, we built some shoreline protection, 
at least we got it partially completed and there was some 
discussion about relocation of the community, potentially, and 
so we do talk to other agencies about what their plans are and 
we provide them information from the engineering perspective, 
advise them on----
    Chairman Begich. Do you think that idea would be helpful?
    Col. Lestochi. I think there's merit to it and just 
thinking along the lines of the FEMA model that we are using 
now, so we respond to a disaster in a place like Galena and we 
work together as an agency----
    Chairman Begich. Right.
    Col. Lestochi [continuing.] To support the State.
    Chairman Begich. Right.
    Col. Lestochi. And now, we are getting to transitioning to 
a phase where we are looking at the long-term recovery of the 
community.
    Chairman Begich. Right.
    Col. Lestochi. And as we start down that road, there's yet 
another committee, if you will, of Federal agencies that----
    Chairman Begich. (Indiscernible--speaking simultaneously) 
efforts.
    Col. Lestochi [continuing.] Are coordinating the efforts 
with the State to come up with that long-term plan. Perhaps a 
model like that could be used for mitigation.
    Chairman Begich. In a broader sense for mitigation.
    Col. Lestochi. Yes, sir.
    Chairman Begich. Let me ask you, and I am going to jump to 
John here real quick, because I know my time's running here, 
but under 116, the match that's required, the Corps really 
does--I mean, does the language prohibit--well, I think what 
the local communities were saying is they want the State to pay 
for it all. I get that, but the language does not prohibit the 
State from paying for it or does it?
    Col. Lestochi. It does not prohibit the State.
    Chairman Begich. OK, because the Corps does not care where 
that match comes from, as long as there's a match, is that a 
fair statement?
    Col. Lestochi. Yes, sir.
    Chairman Begich. John, do not worry, I will not say to the 
Governor you committed to 100 percent pay for it, but I have an 
idea I will discuss with you later, but the cost-benefit ratio, 
this has always been a struggle. Is that fair to say to the 
Corps, in Alaska's situation?
    Col. Lestochi. Absolutely, I mean, you cited the example of 
the small remote subsistence harbors.
    Chairman Begich. Right.
    Col. Lestochi. One of those harbors competing on a benefit-
cost ration using our rules with, the ports on the east coast, 
it will (indiscernible--speaking simultaneously) never work.
    Chairman Begich. We would never win.
    Col. Lestochi. So there were pots created----
    Chairman Begich. Right, to help solve that problem.
    Col. Lestochi [continuing.] To help solve that problem.
    Chairman Begich. And from a Corps perspective, and I do not 
want to put words in your mouth, so if you do not want to 
answer this or disagree, feel free to, that is, I can only 
imagine, I mean, my father-in-law passed away about 2 years 
ago, he was a Corps, as you know, he was a Colonel in the Corps 
and I know these things frustrated him because he wanted to do 
the mission, but because of our rules, and I say ``ours,'' 
meaning the Federal Government legislatively, we set the rules 
and then you have to operate by them.
    There must be some level of frustration when you see 
these--it is just--when you see the project makes so much sense 
to go do, but you are restricted and the village ca not afford 
it and here you are looking at a project and you say, ``Well, 
wish we could, but can not, because the rules are what they 
are.'' Is that a fair statement?
    You do not have to answer if you do not want to. I do not 
want to put you in a box, but I used to know from the 
experience and discussions I had with people who work in the 
Corps, it is the most frustrating thing I hear. They know this 
is something they could go in and attack and go after. They see 
the mission, but they are just frustrated that they ca not do 
it because the rules are what they are and they have limited 
funds.
    Col. Lestochi. We are required to operate within the limits 
of our authorities.
    Chairman Begich. Right, I know. It is more of a rhetorical 
question, I guess, sorry about that, but I know the 
frustration. Let me close out with John, if I can? John, I 
asked the question earlier and I do not know if you could have 
answered it either, but on the--the Subcabinet on Climate, I do 
not know if it is still active, and then there's underneath 
that, the working group or the subworking group, I do not know 
what it was called. Tell me, are either one of those active 
still and what's their activity or----
    Mr. Madden. Well (indiscernible--speaking simultaneously)--
--
    Chairman Begich [continuing.] If you don't have an answer, 
don't----
    Mr. Madden. Yes, sir, for a little bit of background, 
concurrent with the very powerful storm that hit Kivalina, that 
threatened it in September 2007----
    Chairman Begich. Yes.
    Mr. Madden [continuing.] Governor Palin created the 
Subcabinet on Climate Change led by----
    Chairman Begich. Correct.
    Mr. Madden [continuing.] The Commissioner for the 
Department of Environmental Conservation.
    Chairman Begich. Yes, I remember this here.
    Mr. Madden. The first action by that Subcabinet was to 
create two processes. One was a citizen engagement looking at 
infrastructure, invasive species, cultural, many of those 
public participation. The second part of it was the formation 
of the Immediate Action Work Group.
    Chairman Begich. Right.
    Mr. Madden. And I was a member of that, as well as the 
Corps of Engineers, State Department of Transportation, NOAA.
    Chairman Begich. A variety of agencies.
    Mr. Madden. Several, and she was right that we were charged 
with being the people with authorities and capabilities, but to 
look at the immediacy, what can be done, what must be done 
within the next 18 to 24 months as the longer public 
examination process took and the policy process (sic).
    Within that, the first thing we did was look at all of 
these studies, all the reports and determine the ones that were 
really greatest at risk that needed immediate action and that 
turned out to be Kivalina, Shishmaref, Shaktoolik, Unalakleet, 
Newtok, Koyukuk----
    Chairman Begich. Right, Newtok, right.
    Mr. Madden. And for those, some of them resulted in actual 
construction projects.
    Chairman Begich. (Indiscernible--speaking simultaneously) 
right.
    Mr. Madden. We appropriated within just a few months----
    Chairman Begich. Well, like Newtok is moving, correct?
    Mr. Madden. And the primary one was on Kivalina, where the 
State committed that with our own appropriations to do a very--
--
    Chairman Begich. A (indiscernible--speaking 
simultaneously)----
    Mr. Madden [continuing.] Advanced shoreline stabilization 
for the southern part of the island and which the Corps then, 
through their authorities, we linked up.
    Chairman Begich. Got you.
    Mr. Madden. And that has held. For each and all of the 
other communities and many others beyond, we did a 
comprehensive suite of plans, full-blown hazard mitigation 
plans, full emergency operations and response and----
    Chairman Begich. Preparedness.
    Mr. Madden. [continuing.] For each one of those, determined 
a safe haven so they can have an evacuation plan, that has 
continued to a great extent with hundreds of communities around 
the State and particularly on the Climate Change Subcabinet 
does not meet as such because we strove to put it into the 
mainstream.
    Chairman Begich. OK.
    Mr. Madden. To have climate and standards and the other 
things put into the mainline budget.
    Chairman Begich. Can I ask you this, John, and then again, 
I apologize, our clock is ticked here, I have some other 
questions I will submit for the record, that you can prepare 
from your office that says, ``Here's what we did in that 
Immediate Action Working Group and then here are kind of the 
actions we took? '' In other words, here's what we said was the 
situation, here's what we did and then, here's what's pending 
or not necessary or whatever the categories might be. Is that 
something you could prepare for the Committee?
    Mr. Madden. We can, sir. Much of that was captured in the 
archives and it is available online at 
climatechange.alaska.gov.
    Chairman Begich. OK.
    Mr. Madden. So all of the meetings and all of the reports 
are there.
    Chairman Begich. All right.
    Mr. Madden. I will provide a summary of those things that 
are----
    Chairman Begich. That would be great.
    Mr. Madden [continuing.] Still being continued.
    Chairman Begich. OK, that would be great. Thank you very 
much, John. Let me say, again, to the panel, thank you very 
much. I have some additional questions I will put for the 
record. I know other Members of the Committee may also. Thank 
you for being here. Thank you for helping. One of the things 
that is clear, and again, with Alaska, and I think again, a 
unique opportunity, if we do this right and think about 
mitigation, and I always say this on almost anything we do, 
that if we can do it here in Alaska, we can do it anywhere in 
the country, because of our conditions, logistics, the cost, 
the uniqueness of the State.
    If we can figure out how to plan and coordinate in a much 
stronger way when it comes to mitigating for future things that 
we know--it may be erosion, water depths changing, sea level 
changing, that the net result is we could probably do a lot 
better planning and utilization of our Federal resources.
    The purpose of this hearing today was, we start laying 
these issues on the table, especially in rural Alaska, where 
you can just map it and see what's going to happen. It is not a 
question of if it is going to happen, is it 10 years? Is it 2 
years? Is it 50 years? Being at Lonely Point, they were taking 
out an old hazard site, as you know, Tom, they are moving as 
quick as they can because literally, it is slowly being peeled 
away and that area's going to be a big chunk of it is going to 
be gone over time and we have some old military operations 
there that have to be moved as quickly as possible, but these 
are the kinds of things we have to think about when we know the 
disaster is there and the question is; how do we coordinate our 
Federal agencies?
    How do we also look at the pieces to understand that 
mitigation is now in a lot of ways, it is a much more cost 
effective way to deal with disaster than waiting for something 
to happen and pick the pieces up afterward. It just makes so 
much sense. The problem is we have to think long-term and it is 
hard in the world we live in today to think beyond what's 
happening at the moment and part of this Committee's job, and 
as Chair of this Committee, is to think about the future, as 
well as dealing with the immediate response issues and I ca not 
wait for the earthquake one. We had a little preempt here 
earlier, but maybe next interference with recording long-range 
planning on building codes, if also that was part of the long-
term thinking there. Thank you. This Committee stands adjourned 
with how many days, 14 days for additional questions by other 
committee Members. At this time, the Committee is adjourned. 
Thank you very much.
    [Whereupon, at 3:39 p.m., the Subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 


                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
